U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                                  Review of the
                      Drug Enforcement Administration’s
                    Use of the Diversion Control Fee Account


                                      February 2008




                                 I-2008-002
                                     EXECUTIVE DIGEST


INTRODUCTION

       The Office of the Inspector General (OIG) initiated this review in
response to congressional concern about the Drug Enforcement
Administration’s (DEA) use of the Diversion Control Fee Account (Fee
Account). The Chairman of the Permanent Subcommittee on Investigations
of the Senate Homeland Security and Governmental Affairs Committee (the
Chairman) wrote to the OIG stating that he had been informed that the DEA
may have been using Fee Account funds to pay for agency activities
unrelated to the Diversion Control Program. The Chairman’s letter also
stated that the DEA may have prohibited Diversion Investigators from
working overtime and initiating travel and did not hire new Diversion
Investigators due to a lack of Fee Account funds. (See Appendix I for the
Chairman’s letter to the Inspector General.)

      The mission of the DEA’s Diversion Control Program is to prevent,
detect, and investigate the redirection from legitimate channels of controlled
pharmaceuticals (such as narcotics, stimulants, and depressants) and
certain listed chemicals (such as ephedrine). Federal law requires the DEA
to recover “the full costs of operating the various aspects” of its Diversion
Control Program through the fees charged to DEA registrants, such as
manufacturers, distributors, dispensers (including physicians), importers,
and exporters of controlled substances and listed chemicals. 1

      The objectives of our review were to determine whether the DEA had
used Fee Account funds for non-diversion control activities and whether it
had fully funded its Diversion Control Program by using the Fee Account as
required by law. Our review assessed these issues between fiscal year (FY)
2004 and FY 2007. We chose this time period for our review because
FY 2004 was the first full year after the DEA created an organization within
headquarters known as the Validation Unit to review and ensure that every
Fee Account expense over $500 is related to a diversion control activity. 2

       1   21 U.S.C. § 886a(1)(C).

         2 In March 2003, the DEA created the Validation Unit to certify (or validate) that all

spending requests for Fee Account funds exceeding $500 are for legitimate diversion
control-related activities. The unit reviews documents related to requests for Fee Account
funding to determine whether the expense is related to a diversion control activity. If an
expense only partially supports the Diversion Control Program, such as a field office’s rent
or utility cost, the Validation Unit determines the portion of the expense that should be
funded by the Fee Account.


U.S. Department of Justice                                                                        i
Office of the Inspector General
Evaluation and Inspections Division
The DEA established the Validation Unit to address concerns of registrants
and diversion control employees about how it was using Fee Account funds.

      To examine the DEA’s use of Fee Account funds and assess the
allegations referred to us, we reviewed documents pertaining to the Fee
Account; conducted interviews with Office of Diversion Control, Financial
Management Division, and Office of Chief Counsel personnel at DEA
headquarters; and conducted interviews with diversion control employees at
three DEA field divisions we visited and telephone interviews with employees
in four additional DEA field divisions. We also reviewed financial
documents to determine whether Fee Account funds had been used for non-
diversion control activities. To assess whether the DEA fully funded its
Diversion Control Program salary costs with Fee Account funds, we
analyzed work hour data for FY 2004 through FY 2007.

RESULTS IN BRIEF

       We did not substantiate the allegations that the DEA misused Fee
Account funds for non-diversion control activities between FY 2004 and
FY 2007. However, 14 out of the 34 (41 percent) Diversion Investigators in
field divisions we interviewed told us that they thought that the DEA had
used Fee Account funds inappropriately. 3 We believe that the DEA’s recent
policy of using more Special Agents and Intelligence Analysts within the
Diversion Control Program to support investigations, combined with
inaccurate understandings of how the DEA is permitted to use the Fee
Account, contributed to this misperception among Diversion Investigators.

      However, although we found no use of Fee Account funds for non-
diversion activities, our review concluded that the DEA did not fully fund all
Diversion Control Program salary costs with the Fee Account, as required by
21 U.S.C. § 886a(1)(C). Our analysis showed that the DEA used an
estimated $15.4 million of its appropriated funds to support criminal
diversion investigations between FY 2006 and FY 2007 that it could have
charged to the Fee Account based on the DEA’s definition of the Diversion
Control Program at the time the costs were incurred.

       These findings are summarized in more detail below.




       3   When discussing interview data, we use Diversion Investigators to mean Diversion
Program Managers, Diversion Group Supervisors, and Diversion Investigators assigned to
field divisions.


U.S. Department of Justice                                                               ii
Office of the Inspector General
Evaluation and Inspections Division
We did not substantiate the allegations that the DEA misused Fee
Account funds for non-diversion control activities between FY 2004
and FY 2007.

       In our review of DEA obligations exceeding $500, interviews with
diversion control personnel at headquarters and in the field, various DEA
documents concerning diversion, and an investigation of the allegations
themselves, we found no instance of the DEA using Fee Account funds for
non-diversion control activities between FY 2004 and FY 2007. 4 In
addition, our analysis of a random sample of 265 obligations of $500 and
under in the three field divisions we visited showed that all of the
obligations were for allowable diversion control activities. We found that
247 of 265 (93 percent) of the expenses were for a supply or service for a
diversion control employee, to support a diversion investigation, for travel or
training of a diversion control employee, or for a government vehicle funded
through the Fee Account (fee-funded). The remaining 18 obligations (7
percent) were for office supplies that were approved and signed by a
Diversion Program Manager as part of the DEA’s process for ensuring that
Fee Account expenses of $500 and under are legitimate diversion control
expenses.

       We also reviewed a sample of 50 DEA-wide diversion obligations
exceeding $500 to assess whether they were used for diversion control
activities and whether they had been validated by the Validation Unit as
required. 5 We found that all 50 obligations were used for diversion control
activities. Three had not been validated as required, but we were able to
determine from their written justifications that these obligations represented
diversion control activities.

      In addition to reviewing two samples of obligations of Diversion
Control Program expenses to determine whether the DEA used Fee Account
funds for non-diversion activities, we reviewed the allegations the Chairman
had reported to the OIG. We categorized the allegations into three general
categories: (1) that the DEA did not adequately fund overtime, travel, and
investigative expenses to support diversion investigations because of a lack

       4 An obligation is an action by an authorized individual that creates a liability on

the part of the government to make a disbursement at a later time. When an authorized
individual incurs an obligation on behalf of the government, it reduces the available
balance of funding remaining in an allowance used to fund the obligation. Obligations of
$500 and under represented 68 percent of all diversion program obligations from FY 2004
through the second quarter of FY 2007.

       5To ensure that we reviewed expenses in certain categories, we subjectively
sampled 10 obligations from 5 different categories of spending.


U.S. Department of Justice                                                                iii
Office of the Inspector General
Evaluation and Inspections Division
of Fee Account funds; (2) that the DEA had not hired new Diversion
Investigators because of a lack of Fee Account funds; and (3) that the DEA
used Fee Account funds to pay for salaries and other associated costs of
Special Agents and Intelligence Analysts who did not perform diversion
control activities.

       Regarding the first general category of allegations, we found that
overtime, travel, and equipment purchases had been limited during the
period of our review because of two specific events that occurred during
FY 2006, which restricted the amount of money in the Diversion Control
Program budget. First, a delayed collection of registration fees resulted in
the DEA collecting less in funds than expected. Second, the DEA incurred
costs from the settlement of an overtime lawsuit brought by Diversion
Investigators. To ensure that the Fee Account had funds to pay for the
increased overtime costs that resulted from the lawsuit, in July 2006 the
Deputy Assistant Administrator Office of Diversion Control began requiring
advance approval for all purchases of fee-fundable equipment, travel
expenses not related to investigations, and overtime. The DEA also
temporarily restricted the overtime hours available to field divisions.

       Our interviews in the three field divisions we visited indicated that
these restrictions had not undermined diversion control operations. For
example, when we asked Diversion Investigators whether Fee Account
funding was adequate for their diversion control investigations, 25 of
27 (93 percent) told us that it was. We also found that most requests
submitted to the Office of Diversion Control for overtime, travel, and
equipment had been approved. From July 2006 through September 2007,
the Office of Diversion Control recorded 327 requests to use Fee Account
funds in areas that had been restricted. The DEA approved 311
(95 percent) of those requests. However, the DEA does not track, and we
were unable to determine the number of requests made by Diversion
Investigators that were not submitted by their Diversion Program Managers
to the Office of Diversion Control at headquarters.

       Regarding the second general category of allegations that the DEA was
not hiring new Diversion Investigators, we determined that the DEA had not
hired any Diversion Investigators since November 2005. Office of Diversion
Control managers told us that they had suspended the hiring of Diversion
Investigators because they were awaiting a final decision regarding a request
to reclassify the Diversion Investigator position to include law enforcement
authority. However, in September 2007 the Office of Personnel Management
rejected this request, stating that a new position was not warranted because
the proposed position is essentially the current Special Agent position. DEA
managers stated that because the proposal is no longer pending they would
begin hiring additional Special Agents dedicated to diversion control.

U.S. Department of Justice                                                   iv
Office of the Inspector General
Evaluation and Inspections Division
Managers also stated that their decisions regarding the hiring of new
Diversion Investigators will depend on the results of an ongoing staffing
study to determine the optimal balance of Diversion Investigators and
Special Agents in field divisions.

        In addition, we did not substantiate the third general category of
allegations that the DEA used Fee Account funds to pay for salaries and
other associated costs of Special Agents and Intelligence Analysts who did
not perform diversion control activities. We examined the DEA’s method of
calculating fee-fundable salary costs and found that it accounts for time
that fee-funded Special Agents and Intelligence Analysts spend on matters
other than criminal diversion investigations. We found that the DEA
charges the Fee Account only for Special Agent and Intelligence Analyst
salary costs associated with diversion investigations. Also, during our site
visit interviews, field division managers and supervisors stated that the
Special Agents and Intelligence Analysts assigned to diversion control
worked almost exclusively on diversion investigations and that the minimal
amount of time they spent on other duties did not interfere with their
support of the diversion investigations.

       We examined how some Diversion Investigators came to believe that
the DEA had used the Fee Account inappropriately. For example, 14 of
34 (41 percent) Diversion Investigators we interviewed in field divisions told
us that they thought the DEA was using Fee Account funds inappropriately.
In reviewing the allegations referred to us by the Chairman and in our
interviews with Diversion Investigators, we found that Diversion
Investigators’ primary concern was based on two perceptions regarding the
DEA’s use of Fee Account funds. First, Diversion Investigators questioned
whether the increased use of Fee Account funds for Special Agent and
Intelligence Analyst salaries was worth the additional costs to the Diversion
Control Program. Second, Diversion Investigators had misperceptions about
whether the DEA was allowed to use Fee Account funds for certain diversion
control activities.

      Regarding the first of those two perceptions, 13 of 34 (38 percent) of
the Diversion Investigators we interviewed questioned whether the
additional Special Agents and Intelligence Analysts were worth the
additional costs they represented to the Diversion Control Program.
According to one supervisor, from the Diversion Investigators’ perspective
fee-funded Special Agents cost more in terms of salary and benefits than
Diversion Investigators, but do not generally perform all Diversion
Investigator duties such as regulatory investigations. Diversion
Investigators also tended to view fee-funded Intelligence Analysts as an
unnecessary cost to the Fee Account because Diversion Investigators were


U.S. Department of Justice                                                     v
Office of the Inspector General
Evaluation and Inspections Division
used to performing the investigative support tasks of Intelligence Analysts
themselves.
       Since 2004, the DEA began increasing the number of Special Agents
assigned to diversion control groups because they perform law enforcement
duties Diversion Investigators cannot, such as serving warrants and
conducting surveillance activities. 6 In FY 2006, the DEA also began
assigning Intelligence Analysts to diversion investigations to analyze data,
prepare background profiles on targets, and conduct database checks. At
the same time, the number of Diversion Investigators decreased due to
attrition. Meanwhile, between FY 2004 and FY 2007, the number of
Diversion Investigators and administrative support staff for the Diversion
Control Program traditionally funded through the Fee Account decreased by
51 positions (from 786 to 735). The number of fee-funded Special Agents
and Intelligence Analysts increased by 79 positions (from 10 to 89) during
that time. 7

       Moreover, we believe that an inaccurate understanding of the scope of
activities that are fee-fundable contributed to Diversion Investigators’
perception that the DEA used Fee Account funds inappropriately. During
our interviews with Diversion Investigators, we asked whether what was and
was not covered by the Fee Account was clear to them. Eight Diversion
Investigators out of 24 (33 percent) stated that it was not clear and that the
line between what could and could not be paid for with Fee Account funds
was blurred. We also found that all Diversion Program Managers did not
necessarily know that the DEA could fund investigations from the Fee
Account as long as the investigations pertained to a controlled substance or
listed chemical, even if no Diversion Investigator was involved in the
investigation.

      We discussed with DEA diversion control managers the
misconceptions of their staff concerning the Fee Account. They told us that
the DEA had provided its employees with guidance regarding the Fee
Account in the form of the Diversion Control Fee Account User’s Guide. The
guide was last updated in October 2005 and is available on the DEA’s
Intranet site to all DEA employees. However, the guide primarily describes

        6 See U.S. Department of Justice Office of the Inspector General, Follow-Up Review

of the Drug Enforcement Administration’s Efforts to Control the Diversion of Controlled
Pharmaceuticals, Evaluation and Inspections Report I-2006-004 (July 2006), for a
discussion on the Diversion Control Program’s need for Special Agents.

       7 On January 16, 2008, the DEA informed the OIG that on December 20, 2007,
Congress approved the reprogramming of 108 vacant Diversion Investigator positions to
Special Agent positions. This increased the number of authorized fee-funded Special Agent
FTEs to 97 for FY 2007.


U.S. Department of Justice                                                               vi
Office of the Inspector General
Evaluation and Inspections Division
the Validation Unit’s role in Fee Account spending and does not give an
overall description of the DEA’s requirements for using Fee Account funds.
Managers also told us that they had conveyed information pertaining to Fee
Account spending to diversion control employees through conferences for
Diversion Program Managers and that they regularly respond to questions
from diversion control personnel about how the Fee Account can be used.
Nonetheless, these managers told us that they believe that more
communication with diversion control personnel about the Fee Account may
be needed.

The DEA did not fully fund all diversion control salary costs with the
Fee Account.

       Our review determined that for FY 2006 and FY 2007, the DEA did
not include in its Diversion Control Program budget or charge the Fee
Account an estimated $15.4 million in Diversion Control Program salary
costs that were directly related to Diversion Control Program activities. 8
The $15.4 million represented 8 percent of the total salary costs ($188
million) funded by the Fee Account in those years. It included $14.1 million
for Special Agent salaries and $1.3 million for Forensic Chemist (Chemist)
salaries that were attributable to diversion investigations.

       Under 21 U.S.C. § 886a(1)(C), the DEA is required to recover “the full
costs of operating the various aspects” of its Diversion Control Program
(such as salaries for Special Agents, Chemists, and Intelligence Analysts
involved in diversion investigations) through the fees charged to DEA
registrants. The statute also provides the DEA with discretion to define the
scope of fee-fundable activities included in the Diversion Control Program
and, in doing so, to control which of its activities must be funded from the
Fee Account and which can be paid for out of appropriated funds.

       To define diversion control activities and determine the fees to be
collected to fund them, the DEA uses its authority under 21 U.S.C. § 821 to
“promulgate rules and regulations and to charge reasonable fees relating to
the registration and control of the manufacture, distribution, and
dispensing of controlled substances and to listed chemicals.” In Final Rule
notices published in the Federal Register, the DEA lists and explains the
activities that it has determined are part of the Diversion Control Program
(and that are therefore fee-fundable) and notifies registrants of the amount

       8 The reprogramming of 108 vacant Diversion Investigator positions to Special

Agent positions discussed in Footnote 7 increased the number of fee-funded authorized
Special Agent FTEs by 27, from 70 to 97 for FY 2007. As a result, we estimate that the
Special Agent and Chemist salary costs attributable to the Diversion Control Program but
not funded with the Fee Account for FY 2006 and FY 2007 totaled $11.2 million.


U.S. Department of Justice                                                             vii
Office of the Inspector General
Evaluation and Inspections Division
of fees they are required to pay. The most recent Final Rule was published
on August 29, 2006.

       The DEA has defined the salary costs for Special Agent, Intelligence
Analysts, and Chemists attributable to Diversion Control Program activities
as fee-fundable. Each year, Congress authorizes the number of Special
Agent, Intelligence Analyst, and Chemist full-time equivalents (FTE) that the
DEA can charge to the Fee Account based on estimates provided by the
DEA. 9 However, when ongoing investigations exceed the cumulative
number of authorized FTEs the DEA allows Special Agents to continue
working on the investigations, but does not charge the Fee Account for more
positions (or FTEs) than are congressionally authorized. The DEA funds any
salary costs for Special Agents, Intelligence Analysts, and Chemists
attributable to Diversion Control Program activities above the authorized
levels with appropriated funds.

       Although directly related to Diversion Control Program activities, the
$15.4 million in salary costs that we identified were above the authorized
levels, and the DEA paid for these costs with appropriated funds.
Additionally, the $15.4 million in salary costs was not included in the
Diversion Program’s budget. The DEA determines the amount of fees to
charge registrants based on its estimate of the costs to operate the Diversion
Control Program’s fee-fundable activities. The Diversion Control Program’s
budget must reflect all fee-fundable costs so the DEA has an accurate
reflection of the program’s true costs when it set registration fees. Including
these additional costs would not have increased fees significantly. For
example, if the DEA had computed the FY 2006 through FY 2008 fees based
on the total salary costs for the time that Special Agents and Chemists
spent on diversion investigations, the 3-year registration fee for physicians
would have increased by $19 from $551 to $570, approximately $6 per
year. 10




        9 An FTE is the number of total hours worked divided by the maximum number of

compensable hours in a work year. The DEA defines 1 full-time work year as 2,080 hours
(or 2,600 hours for Special Agents conducting criminal investigations). One worker
occupying a full-time job all year would consume one FTE. Similarly, two employees
working for 1,040 hours each would consume one FTE.

       10  The DEA computed the current fees based on the estimated costs of operating
the Diversion Control Program for FY 2006 through FY 2008. The current fees will be in
place until the DEA next raises fees.


U.S. Department of Justice                                                               viii
Office of the Inspector General
Evaluation and Inspections Division
CONCLUSIONS AND RECOMMENDATIONS

       We did not substantiate the allegations that the DEA misused Fee
Account funds for non-diversion control activities from FY 2004 through
FY 2007. We reviewed a statistical sample of obligations of $500 and under
in three field divisions as well as a sample of obligations over $500 for
spending Fee Account funds and found that all the obligations were for
legitimate diversion control activities. In addition, interviews with DEA
personnel and documents pertaining to the use and availability of Fee
Account funds did not substantiate allegations that the DEA had used Fee
Account funds for non-diversion control activities.

       Moreover, while the DEA had restricted diversion-related overtime,
travel, and other related expenses, we determined that the DEA had
legitimate reasons for these restrictions. The DEA restricted the use of
funds for these purposes because of a delayed collection of registration fees
and because funds were needed to cover the costs of an increase in the rate
of Diversion Investigator overtime resulting from the settlement of a lawsuit.
Although the DEA imposed restrictions on purchases of equipment, travel
expenses not related to investigations, and overtime, our interviews in the
three field divisions we visited indicated that these restrictions did not
undermine diversion control operations. The allegations also stated that the
DEA did not hire new Diversion Investigators because of a lack of Fee
Account funds. We found that the DEA’s reason for not hiring new
Diversion Investigators – that it was awaiting an Office of Personnel
Management decision on reclassifying the Diversion Investigator position –
was reasonable.

      However, many Diversion Investigators we interviewed still perceived
that Fee Account funds were being used inappropriately. We believe that
the DEA’s recent policy of using more Special Agents and Intelligence
Analysts within the Diversion Control Program, combined with an
inaccurate understanding of how the DEA can use the Fee Account,
contributed to the Diversion Investigators’ perception.

       We also concluded that for FY 2006 and FY 2007, the DEA did not
fund all Diversion Control Program activities through the Fee Account. We
identified an estimated $15.4 million in salary costs for Special Agents and
Chemists between FY 2006 and FY 2007 attributable to criminal diversion
investigations that were not included in the program’s current budget and
were not paid with Fee Account funds.

       As a result of our review, we recommend that the DEA:



U.S. Department of Justice                                                   ix
Office of the Inspector General
Evaluation and Inspections Division
       1. Determine the total of actual and planned program costs, including
          salary costs attributable to diversion control activities, especially
          for Special Agents, Intelligence Analysts, and Chemists, and
          include these costs in the Diversion Control Program’s budget from
          this point forward.

       2. Provide more information to DEA personnel on the requirements
          governing the use of Fee Account funds, particularly for salary and
          other associated costs of Special Agents and Intelligence Analysts.




U.S. Department of Justice                                                   x
Office of the Inspector General
Evaluation and Inspections Division
                                    TABLE OF CONTENTS


EXECUTIVE DIGEST ............................................................................. i

BACKGROUND ..................................................................................... 1

OBJECTIVES, SCOPE, AND METHODOLOGY OF THE OIG
REVIEW ............................................................................................. 14

RESULTS OF THE REVIEW................................................................. 18

  We did not substantiate the allegations that the DEA
  misused Fee Account funds for non-diversion control
  activities between FY 2004 and FY 2007. ....................................... 18

  The DEA did not fully fund all diversion control salary
  costs with the Fee Account............................................................. 33

CONCLUSIONS AND RECOMMENDATIONS ......................................... 37

APPENDIX I: Congressional Letter of Allegations............................... 39

APPENDIX II: Office of Diversion Control Program Within
the DEA ............................................................................................. 40

APPENDIX III: Principal Controlled Substances or
Commodities that DEA Considers Fee-Fundable................................. 41

APPENDIX IV: DEA’s Response to Draft Report ................................. 42

APPENDIX V: OIG Analysis of the DEA’s Response ............................ 46




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                       BACKGROUND


Introduction

       The Drug Enforcement Administration (DEA) is the primary agency for
enforcing the provisions of the Controlled Substances Act that pertain to the
diversion of controlled pharmaceuticals, such as narcotics, stimulants,
depressants, and regulated chemicals such as ephedrine. 11 The DEA’s
Diversion Control Program seeks to prevent, detect, and investigate the
redirection of controlled pharmaceuticals and regulated chemicals from
legitimate channels while ensuring an adequate, uninterrupted supply to
meet legitimate needs. The Diversion Control Program is funded through
registration fees that manufacturers, distributors, dispensers (such as
physicians), importers, and exporters of controlled substances and certain
regulated chemicals pay into an account called the Diversion Control Fee
Account (Fee Account). Federal law under 21 U.S.C. § 886a(1)(C) (§ 886a)
directs the DEA to set the fees “at a level that ensures the recovery of the
full costs of operating the various aspects of the Diversion Control Program.”

      The Office of the Inspector General (OIG) initiated this review in
response to a letter from the Chairman of the Permanent Subcommittee on
Investigations of the Senate Homeland Security and Governmental Affairs
Committee (the Chairman). 12 The letter provided allegations the
Subcommittee had received that the DEA was using Fee Account funds to
pay for agency activities unrelated to the Diversion Control Program, such
as funding the salaries of Special Agents and Intelligence Analysts who did
not perform diversion control activities. The allegations also stated that
because of a lack of Fee Account funds, the DEA may have prohibited
Diversion Investigators from working overtime and initiating travel and did
not hire new Diversion Investigators. Our review assessed the validity of the
allegations since fiscal year (FY) 2004, which was the first full year after the
DEA created the Validation Unit within DEA headquarters to review and
ensure that every Fee Account expense over $500 is related to a diversion
control activity. 13

       11   21 U.S.C. 822(a)(1) and 822(a)(2).

       12   See Appendix I for the Chairman’s letter.

        13 In March 2003, the DEA created the Validation Unit, which is independent of the

Office of Diversion Control, to certify (or validate) that all spending requests for Fee Account
funds exceeding $500 are for legitimate diversion control-related activities. The unit
reviews documents related to requests for Fee Account funding to determine whether the
expense is related to a diversion control activity, and, if the expense only partially supports
                                                                                           (Cont.)

U.S. Department of Justice                                                                      1
Office of the Inspector General
Evaluation and Inspections Division
      In this report, we examine whether the DEA used funds from the Fee
Account for non-diversion activities and whether the DEA fully funded its
Diversion Control Program with Fee Account funds as required.

Diversion Control Program

        The DEA’s Diversion Control Program has two main functions. The
first is performing regulatory oversight of all registrants that provide
controlled pharmaceutical products and regulated chemicals to the public to
ensure that the registrants are complying with the requirements of the
Controlled Substances Act. This is done through routine regulatory
investigations of registered drug or chemical handlers as well as by
providing information and assistance to registrants. The second function is
to identify and investigate (administratively, civilly, or criminally) those
persons responsible for diverting controlled pharmaceutical products and
regulated chemicals from legitimate channels, whether through willfully
negligent or criminal acts. This is done by conducting criminal and civil
investigations.

       The DEA’s diversion control activities are directed and supported from
DEA headquarters, but are conducted primarily through the DEA’s field
divisions. Historically, DEA’s headquarters-based diversion control
activities have been largely centralized within the Office of Diversion
Control. Over the last few years, the DEA has decentralized various support
and operational functions, such as the planning of training and the
coordinating of criminal diversion investigations, to other headquarters
sections.

Diversion Control Activities Conducted at Headquarters

      The Office of Diversion Control is located within the DEA’s Operations
Division. The Office of Diversion Control provides policy direction, program
guidance, and support to DEA diversion control staff in the field. It also
coordinates all regulatory activities, such as working with registrants and
other members of the chemical and pharmaceutical community to help
prevent the diversion of controlled pharmaceuticals and listed chemicals.
The section within the Office of Diversion Control that plays the largest role
in managing Fee Account spending is the Diversion Planning and Resources
Section (ODA). ODA oversees the development of budget submissions,
issues Fee Account financial policies, and tracks and analyzes requests for
purchases and funds distributed to DEA headquarters and field offices.

the Diversion Control Program, such as a field office’s rent or utility cost, the portion of the
expense that should be funded by the Fee Account.


U.S. Department of Justice                                                                     2
Office of the Inspector General
Evaluation and Inspections Division
ODA also manages personnel, develops administrative guidelines, and
develops recruitment efforts for the Diversion Control Program.

      ODA works closely with the Office of Resource Management in the
DEA’s Financial Management Division to create the Diversion Control
Program’s budget request and maintain the Table of Organization, a
comprehensive listing of positions within the DEA offices. The Office of
Resource Management analyzes diversion staffing and payroll data to
determine payroll hours and staffing levels.

Diversion Control Program Structure in the Field

       The DEA domestic field structure consists of 21 field divisions, each
headed by a Special Agent in Charge, and 227 sub-offices located
throughout the United States. Nineteen of the 21 field divisions have a
Diversion Program Manager who supervises all diversion control personnel
in the field division. Sixty-three of these offices and sub-offices have one or
more groups of Diversion Investigators led by a diversion Group Supervisor.
The DEA has also assigned Special Agents and Intelligence Analysts to
assist some diversion groups. Below is a description of these positions and
their roles and responsibilities:

   •   Diversion Investigators investigate regulatory, civil, and criminal
       matters pertaining to DEA registrants. They do not have law
       enforcement authority so they cannot perform law enforcement
       functions such as serving warrants, conducting surveillance,
       managing confidential informants, or working undercover. Diversion
       Investigators rely on DEA Special Agents or other law enforcement
       personnel to conduct tasks requiring law enforcement authority. 14

   •   Special Agents conduct diversion investigations and assist Diversion
       Investigators by performing investigative tasks that require law
       enforcement authority such as surveillance, registering and working
       with confidential informants, serving search warrants, and making
       arrests.

   •   Intelligence Analysts support diversion investigations by analyzing
       data from wiretaps, prescription records, and interviews of

       14 The DEA has sought law enforcement authority for Diversion Investigators. In

September 2005, the DEA submitted a request to the Department of Justice to reclassify
the Diversion Investigator position to one with law enforcement authority through a new
law enforcement occupational series. However, in September 2007 the Office of Personnel
Management rejected this request, stating that a new position was not warranted because
the proposed position is essentially the current Special Agent position.


U.S. Department of Justice                                                                3
Office of the Inspector General
Evaluation and Inspections Division
       confidential informants; preparing background profiles on
       investigative targets; and performing database checks.

       The DEA created Tactical Diversion Squads in 1996. The squads
conduct criminal diversion investigations and are composed of teams of
Diversion Investigators, Special Agents, and state and local law enforcement
personnel. Tactical Diversion Squads are currently located in five DEA field
divisions: Denver, St. Louis, Houston, New Orleans, and Boston.

History of the Fee Account

       In 1971, DEA’s predecessor, the Bureau of Narcotics and Dangerous
Drugs, instituted a fee on registrants of controlled substances to cover the
administrative costs of processing their registrations. The annual fees
collected from registrants totaled about $15 million and were not intended
to cover the costs to the agency of performing its diversion control activities.
Instead, congressionally appropriated funds financed the bulk of the
Diversion Control Program’s activities.

       In October 1992, Section § 886a of the Departments of Commerce,
Justice, and State, the Judiciary, and Related Agencies Appropriations Act of
1993 (Appropriations Act of 1993) established the Fee Account. 15 This Act
changed the funding of the Diversion Control Program beginning in FY 1993
from the DEA’s congressionally appropriated funds to fees paid by
registrants, including doctors, pharmacies, hospitals, manufacturers,
distributors, importers, and exporters of controlled substances. The Act
stated that the DEA must set its registration fees “at a level that ensures the
recovery of the full cost of operating various aspects of” the Diversion
Control Program. While Congress mandated that the Fee Account be used
to support the Diversion Control Program only, it did not include any
specific criteria on what constituted the program. Thus, most of the specific
information about what can and cannot be charged to the Fee Account is
found only in notices issued by the DEA through the Federal Register.

      The DEA established a registration fee schedule in a Final Rule
published in the Federal Register on March 22, 1993. 16 The rule stated
that:

       activities contained in the [diversion] program which give rise to the fees
       consist of Diversion Investigators, analysts, technicians, and clerical

       15   See Pub. L. No. 102-395, codified at 21 U.S.C. § 886a.

       16   Final Rules published in the Federal Register set the fees and describe the
activities that the DEA considers to be part of the Diversion Control Program.


U.S. Department of Justice                                                                4
Office of the Inspector General
Evaluation and Inspections Division
       personnel salaries and expenses; and travel, rent, utilities, supplies,
       equipment and services associated with these positions for the registration
       and control of the manufacture, distribution and dispensing of controlled
       substances. 17

The Final Rule specifically excluded costs associated with regulated
chemical control efforts, clandestine laboratory efforts, Diversion
Investigators assigned to foreign posts, and the DEA’s Office of Chief
Counsel.

       In response to the 1993 Final Rule, the American Medical Association
filed a lawsuit objecting to the new fees because the Final Rule did not
“provide adequate notice or explanation of the costs and scope of the
Diversion Control Program to be funded through those fees.” In November
1995, the United States District Court for the District of Columbia allowed
the new registration fee schedule to remain in effect, but required the DEA
to identify specific components of the Diversion Control Program and
explain why the components could be fee-funded.

      In August 2002, the DEA published another Final Rule to describe the
fee-funded components of the Diversion Control Program. The August 2002
Final Rule stated that in addition to what was included in the 1993 Final
Rule, other activities were also fee-fundable, such as personnel and
associated costs for the operation of two Diversion Control Program data
systems known as ARCOS and CSA, and the establishment of the National
Forensic Laboratory Information System and Tactical Diversion Squads.

       In October 2003, the DEA published a Final Rule that increased
registration fees for the first time in 10 years. As part of the justification for
the increased fees, the October 2003 Final Rule described new initiatives of
the Diversion Control Program, including responding to the threat of
OxyContin abuse and Internet-based diversion, and upgrading ARCOS. The
2003 Final Rule also clarified activities that, while supporting the Diversion
Control Program, would still be funded through congressional
appropriations. 18

      In December 2004, the Consolidated Appropriations Act of 2005
(Pub. L. No. 108-447) amended 21 U.S.C. § 886a to define the Diversion

       17   58 Fed. Reg. 15273.

       18 These activities included two sections in the Office of Chief Counsel that litigated

administrative actions related to registrants and provided legal support on regulatory policy
matters; salaries and related expenses in the Office of Training specifically dedicated to the
Diversion Control Program; and a portion of the Office of Forensic Sciences Special Testing
Laboratory that analyzed licit drugs.


U.S. Department of Justice                                                                  5
Office of the Inspector General
Evaluation and Inspections Division
Control Program as encompassing “the controlled substance and chemical
diversion control activities” [emphasis added] of the DEA. Previously, the
user fees paid by handlers of regulated chemicals covered only the costs of
their registrations and some administrative oversight, while the Chemical
Diversion Control Program was funded through DEA’s appropriations.

       In November 2005, the DEA published a Federal Register notice that
addressed the addition of the chemical diversion control activities to the
program. This notice proposed expanding the range of diversion control
activities that could be funded from the Fee Account to include positions for
Diversion Investigators posted in overseas DEA offices; additional Special
Agent and – for the first time – Intelligence Analyst positions; and portions
of the Office of Chief Counsel, the Office of Forensic Sciences Special Testing
Laboratory, and the Special Operations Division. The proposed fee was also
to cover costs for the registration and control of the manufacturing,
distribution, and dispensing of controlled substances as well as listed
chemicals. This new fee structure went into effect in December 2006.

Concerns About the DEA’s Use of Fee Account Funds

       Since the late 1990s, both registrants and DEA diversion control
employees have raised concerns about how the DEA is using Fee Account
funds. To address complaints regarding the use of the Fee Account and to
better determine the cost and parameters of the Diversion Control Program,
in the late 1990s the DEA took several steps to improve its management of
the Fee Account. First, in 1999 the DEA created a work group made up of
personnel from the DEA Office of Diversion Control and the Office of
Resource Management. The purpose of the work group was to clarify what
could and could not be fee-funded, complete the 2002 Final Rule to be
published in the Federal Register, account for money that had been
collected since the Fee Account was established, and identify the full cost of
the Diversion Control Program. The work group also examined overall
policy questions such as whether international activities should be paid for
with the Fee Account.

       At approximately the same time, in February 2000, the DEA Deputy
Administrator requested that DEA’s Office of Inspections conduct an audit
of charges to the Fee Account from FY 1994 through FY 2000 to determine
their legitimacy and to review management controls in place to oversee the
Fee Account. 19 The results of this audit were never finalized, but some of
the preliminary results were that the DEA:

       19 Management controls are intended to provide reasonable assurance that Fee
Account funds are used only for diversion control activities.


U.S. Department of Justice                                                            6
Office of the Inspector General
Evaluation and Inspections Division
       1. did not adequately monitor costs charged to the Fee Account,

       2. did not establish effective management controls after Congress
          required that the DEA fully fund the Diversion Control Program
          through registration fees in FY 1993, and

       3. had no mechanism to verify salaries charged to the Fee Account.

      As a result of the efforts of the work group and the Office of
Inspections audit, the Deputy Administrator established a Diversion Task
Force in October 2000 to review FY 1999 Fee Account charges to determine
whether they were legitimate and to continue reviewing and validating
obligated Fee Account funds from FY 2001 and FY 2002. In March 2003,
the DEA created a permanent entity within the Office of the Deputy
Administrator, Executive Policy and Strategic Planning Staff, to carry out
the functions of the Diversion Task Force for all future Fee Account
spending. This entity, which is independent from the Office of Diversion
Control, is known as the Validation Unit. The unit is discussed later in this
Background section.

Determination of the Cost of the Diversion Control Program and
Registration Fees

       The Controlled Substances Act requires that every entity that
manufactures, distributes, or dispenses any controlled substance or certain
listed chemicals obtain an annual registration. The amount of the
registration fee depends on the DEA’s estimate of the total cost of operating
its Diversion Control Program for a given year. In addition, the DEA must
factor into the registration fee the $15 million it is required to pay the
U.S. Treasury annually to cover administrative costs. 20 For instance, if the
cost of the Diversion Control Program was estimated at $200 million for a
given year, the total amount the DEA would need to collect through
registration fees for that year would be $215 million.

       To determine the expected operating costs for the program each fiscal
year, every office within the DEA that uses Fee Account funds must
estimate its expenditures for diversion control activities. The DEA refers to
these estimates as “spend plans.” The spend plan is essentially a proposed
budget for the fiscal year based on previous spending, planned
enhancements, and any new initiatives planned for the next fiscal year. For
example, a field office’s spend plan may include funding for operational

       20   21 U.S.C. § 886a (1992).


U.S. Department of Justice                                                  7
Office of the Inspector General
Evaluation and Inspections Division
activities associated with a planned investigation, such as investigation-
related travel, payments to confidential informants for information, or
purchasing evidence. The spend plan for a headquarters entity such as the
Office of Administration may request Fee Account funds for rent,
renovations, and vehicle purchases. The DEA compiles the spend plans
from each office into an overall financial plan for diversion control. 21

       After the budget is completed, the DEA is able to set the fee structure
based on the number of registrants. As of FY 2007, there were 1.29 million
registrants. 22 Eighty-one percent of registrants were medical practitioners,
11 percent were mid-level practitioners, 5 percent were pharmacies, and the
remaining registrants were hospitals and clinics, researchers, teaching
institutions, narcotic treatment programs, analytical laboratories, and
controlled substance and regulated chemical manufacturers, distributors,
reverse distributors, importers, and exporters. Table 1 presents the
individual registration fees, by type of registrant, set by the DEA for
FYs 1993, 2003, and 2006. Currently, certain registrants pay their fees
annually and certain registrants pay their fees once every 3 years.




       21 A financial plan is the instrument by which the DEA allocates resources to its

various offices and programs.

       22 According to a DEA official, each year there is a net increase of approximately
30,000 registrants.


U.S. Department of Justice                                                                  8
Office of the Inspector General
Evaluation and Inspections Division
 Table 1: Registration Fees by Type of Registrant for FYs 1993, 2003,
                              and 2006
                                                        FY 1993      FY 2003       FY 2006
  Type of registrant                                      fee          fee           fee
  Controlled substance manufacturer                       $875        $1,625       $2,293
  Controlled substance distributor, exporter,
                                                          $438          $813       $1,147
  reverse distributor, or importer
  Medical practitioner, retail pharmacy,
  hospital/clinic, teaching institution, or midlevel      $210          $390         $551
  practitioner*
  Researcher, analytical laboratory, or narcotics
                                                            $70         $130         $184
  treatment program
  Regulated chemical manufacturer                             —            —       $2,293
  Regulated chemical retail distributor, importer,
                                                              —            —       $1,147
  distributor, or exporter
  * Midlevel practitioners are nurse practitioners, nurse midwives, or physician
  assistants authorized by the state in which they practice to dispense controlled
  substances.
  Source: DEA

As shown in Table 1, the DEA has increased registration fees twice since
1993.

Process for Spending Fee Account Funds

      Every field division and headquarters office within the DEA that
conducts or supports diversion control-related activities has an amount of
Fee Account funds (called an allowance) allocated to it at the beginning of
each fiscal year. 23 Each office’s allotment is based on the spend plan it
developed with approval from the Office of Diversion Control for the year.
The funding for most offices is front-loaded, meaning that at the beginning
of each quarter the office receives one-fourth of its annual allotment of
funds. This allows personnel in the office’s fiscal unit to obligate their own
Fee Account expenses.



       23 An allowance is a portion of the Fee Account that the Diversion Planning and

Resource Section transfers from a central account to an Allowance Manager to use in
carrying out the mission of his or her organization. An Allowance Manager is an employee,
usually at the management level, who is charged with managing the funding provided in an
allowance. The Allowance Manager is an office-head-level official, typically the Special
Agent in Charge, Laboratory Director, Country Attaché, or headquarters official at the
Deputy Assistant Administrator level or higher. An Allowance Manager may delegate
authority to authorize the use of funding in certain instances, such as for travel or training.


U.S. Department of Justice                                                                   9
Office of the Inspector General
Evaluation and Inspections Division
       Any DEA employee can initiate a request for Fee Account funding for
a purchase by submitting a request to his or her supervisor. This is
referred to as a “commitment request.” Examples of commitments include a
request for goods or services or travel orders. The commitment request is
supposed to include a written justification for why Fee Account funds
should be used. The supervisor submits the request and provides the
necessary documentation to the official authorized to approve the use of Fee
Account funding. 24 Once the proper document is signed by the authorizing
official, the request is submitted to the Allowance Manager. If the Allowance
Manager approves a request that is $500 or less, then the Allowance
Manager submits the request to the funding office for processing and
obligation. 25 Once the commitment request is recorded in the Federal
Financial System (FFS), it becomes an obligation. 26 After the funds have
been expended, the expense is again entered into the FFS as an
expenditure. If the expense exceeds $500, then the Allowance Manager
submits the request to a unit that validates that the expense is a legitimate
use of Fee Account funds. This unit is called the Validation Unit.

       The Validation Unit. The Validation Unit’s role is to certify (or
validate) that any spending request for Fee Account funds that exceeds
$500 is for a legitimate diversion control-related activity. The Validation
Unit also conducts on-site reviews of offices in headquarters and field
divisions on their use of Fee Account funds. (See Appendix II for the
structure of the Office of Diversion Control in relation to the Validation
Unit.) The Validation Unit does not determine whether the funds are
available to be spent. It only determines whether the request to spend
funds from the Fee Account is a legitimate diversion control activity. The
Validation Unit makes its assessment based, in part, on a written
justification included on the commitment request document. Even if the
Validation Unit validates a request, it does not mean that Fee Account funds
will ultimately be spent. The Office of Diversion Control and the Office of
Resource Management share responsibility for determining whether funds

       24 The authorizing official can be the Diversion Program Manager, Assistant Special
Agent in Charge, or the Diversion Planning and Resources Section Chief.

       25 An obligation is an action by an authorized individual that creates a liability on

the part of the government to make a disbursement at a later time. When an authorized
individual incurs an obligation on behalf of the government, this reduces the available
balance of funding remaining in the account.

        26 The FFS is the primary DEA financial system. It is a budgeting, accounting, and

reporting application that records budget execution, fixed assets, purchasing, accounts
payable, disbursements, travel, accounts receivable, general ledger, and other financial
transactions. The FFS allows online queries, provides reports for monitoring program costs
and financial operations, and fulfills external financial reporting requirements.


U.S. Department of Justice                                                                 10
Office of the Inspector General
Evaluation and Inspections Division
are available and whether a given activity is a worthwhile diversion control
expense. In addition, the Validation Unit sends ODA a copy of all
validations so that it is aware of all expected (or obligated) Fee Account
expenses.

       If the Validation Unit determines that the commitment request is for a
legitimate diversion control activity, then it stamps the document with a
Validation Unit stamp and returns an electronic copy of the validated
commitment request back to the field division or headquarters office so that
the expense can be processed and obligated. If the Validation Unit
determines that the request is not for a valid diversion control activity, then
it denies the request.

       Each quarter, the Validation Unit reconciles the commitments it has
validated with the actual expenditures recorded in the FFS. In this process,
the Validation Unit compares the actual expenditures of Fee Account funds
made by each entity within the DEA that received Fee Account funds with
the validations for that quarter. The Validation Unit requests
documentation from the relevant office for all expenditures over $500 for
which it has no record of validation. With the additional documentation,
the Validation Unit either validates the expense retroactively or determines
that it is not a legitimate use of the Fee Account and arranges for the funds
expended to be transferred back to the Fee Account. See Figure 1 for the
DEA’s process for requesting Fee Account funds.




U.S. Department of Justice                                                  11
Office of the Inspector General
Evaluation and Inspections Division
            Figure 1: Process for Requesting Fee Account Funds



                         Commitment Request                                  LEGEND
                         Submitted to Supv.
                                                              Supervisor – Unit Chief, Section Chief,
                                                              Group Supervisor, Diversion Program Manager

                                                              Authorizing Official – Diversion Program Manager,
                         Supv. Submits Request                Assistant Special Agent in Charge, Diversion Planning and
                         To Authorizing Official              Resources Section Chief

                                                              Allowance Manager – Special Agent in Charge, Office Head,
                                                              Regional Director, Diversion Planning and Resources
                                                              Section Chief, Diversion Deputy Director, Diversion Deputy
                                                              Assistant Administrator
                No
                           Authorizing Official
         Stop                                                 Funding Office – Administrative Office or Program Fiscal
                               Approves
                                                              Operations

                                                              Authorized Purchaser – Micro-purchase card holder,
                                            Yes               contracting officer

                                                              Payment Certifying Official – not in the funds approval
                             Authorizing Official             chain
                                 Submits to
                             Allowance Manager                DEA’s Federal Financial System – FFS



                                                                     Request Sent Back to
                                                                       the Requester or
                No
                                                                      Authorizing Official
         Stop              Allowance Manager
                                                                         for Additional
                                Approves
                                                                       Information. If a
                                                                      Nexus is Identified                   No
                                                                         Move to YES.
                                      Yes

                                                                                               Validation Unit
                                                                                               Determines if a
                                                    Yes      Submit to
                            Request $500                                                     Nexus to a Diversion
                                                           Validation Unit
                             Or Above?                                                       Control Fee Account
                                                                                              Activities Exists.
                          No
                                                                                      Yes



                     Request Submitted to the
                        Funding Office for                                                           Validation Reconciles
                         Processing and                                                              with FFS Quarterly and
                           Obligation                                                                       Annually



                      Authorized Purchaser          Goods and/or Services            Expenditure of Funds is
                      Secures Goods and/or            are Received and               Certified by the Payment
                            Services                      Accepted                      Certifying Official




       Source: DEA




U.S. Department of Justice                                                                                                    12
Office of the Inspector General
Evaluation and Inspections Division
       The Validation Unit is also responsible for determining the Fee
Account’s share of DEA rent and salary costs. The Validation Unit
determines the Fee Account’s share of rent by computing the proportion of
authorized diversion control employees in each office based on the DEA’s
Table of Organization for that year, and makes that equal to the Fee
Account’s share of rent in that office. The Validation Unit uses the
authorized number of employees rather than the actual number of
employees because even when a position is vacant, the physical space must
be reserved for the employee hired to fill the position. For example, if
10 percent of all employees on the Table of Organization for a given office
were assigned to fee-fundable positions, then the Fee Account’s share of
rent in that office would be 10 percent of that office’s rent. The Validation
Unit repeats that calculation for every DEA office, and the DEA charges the
Fee Account the total of all the individual rent costs.

      Between FY 2004 and FY 2005, the Validation Unit determined the
amount of salary costs to charge to the Fee Account simply by totaling the
salary costs of all of the DEA employees in fee-funded positions. The
Validation Unit did not include any time that employees who were not in
fee-funded positions spent on diversion-related investigations or activities.
For example, if a Special Agent expended work hours on criminal diversion
investigations but was not in a fee-funded position, the DEA did not charge
these hours to the Fee Account.

       Starting in FY 2006, the Validation Unit based the salary charges to
the Fee Account on salary costs of employees in fee-funded positions, plus
cumulative diversion work hours by employees in certain other non-fee-
funded positions. The DEA used the congressionally authorized number of
full-time equivalents (FTE) as the maximum the Fee Account could be
charged. 27 For example, if the DEA recorded 100 Special Agent diversion
FTEs but the congressionally authorized number of FTEs was 50, the DEA
charged the Fee Account for 50 Special Agent FTEs.




        27 An FTE is the number of total hours worked divided by the maximum number of

compensable hours in a work year. The DEA defines 1 full-time work year as 2,080 hours
(or 2,600 hours for Special Agents conducting criminal investigations). One worker
occupying a full-time job all year would consume one FTE. Similarly, two employees
working for 1,040 hours each would consume one FTE. Congress authorizes the number of
Special Agent, Intelligence Analyst, and Chemist FTEs that the DEA can charge to the Fee
Account each year.


U.S. Department of Justice                                                           13
Office of the Inspector General
Evaluation and Inspections Division
                 OBJECTIVES, SCOPE, AND METHODOLOGY
                          OF THE OIG REVIEW


Objectives

      The objectives of our review were to determine whether the DEA used
Fee Account funds for non-Diversion Control Program activities and whether
since FY 2004 the DEA has fully funded its Diversion Control Program with
the Fee Account, as required by law.

Scope

       Our review examined the Fee Account revenues and expenses from
FY 2004 through FY 2007. We began with FY 2004 because it was the first
full year after the DEA created the Validation Unit within headquarters to
review and ensure that every Fee Account expense over $500 is related to a
diversion control activity. We reviewed whether the DEA used Fee Account
funds for non-diversion control activities and, conversely, that Fee Account
funds were not available for legitimate diversion control activities.

       We considered possible uses of the Fee Account for non-diversion
control activities before FY 2004 to be out of the scope of our review. In
addition, we did not evaluate whether the DEA used Fee Account funds
effectively. Rather, we evaluated whether the DEA used Fee Account funds
for activities it determined to be within the Diversion Control Program.

Methodology

Document Review

       To examine the DEA’s use of Fee Account funds, we reviewed federal
laws; final rules published in the Federal Register; budget documents; DEA
policies, procedures, and manuals; DEA internal inspection reports; and
electronic correspondence between the Validation Unit and the DEA’s Office
of Chief Counsel regarding the Office of Chief Counsel’s legal interpretation
of how Fee Account funds can be used.

Interviews

      At DEA headquarters, we interviewed the Chief of the Executive Policy
and Strategic Planning Staff and all the employees of the Validation Unit.
We interviewed employees within the Office of Diversion Control, including
the Section Chiefs of the Planning and Resources Section, the Liaison and


U.S. Department of Justice                                                 14
Office of the Inspector General
Evaluation and Inspections Division
Policy Section, and the Registration and Program Support Section. Outside
of the Diversion Control Program, we spoke with employees within the Office
of Investigative Technology and in each of the four sections of the Financial
Management Division. We also interviewed attorneys in the DEA’s Office of
Chief Counsel and in the OIG’s Office of General Counsel.

Site Visits

       We conducted site visits at three DEA field divisions: Chicago,
Illinois; Detroit, Michigan; and St. Louis, Missouri. We selected the Chicago
field division because it is a large field division and because a DEA chemical
laboratory that analyzes drug evidence is located in the city. We chose the
Detroit field division and its district office in Columbus, Ohio, because the
Office of Inspection in conjunction with the Validation Unit and ODA had
recently conducted a review there, which noted that allegations of Fee
Account misuse had been raised by personnel within the field division. We
selected the St. Louis field division and its district office in Kansas City,
Kansas, at the suggestion of DEA managers and because the St. Louis office
has a Tactical Diversion Squad.

      During these field visits, we interviewed Special Agents in Charge,
Associate and Assistant Special Agents in Charge, Diversion Program
Managers, Diversion Group Supervisors, Diversion Investigators, Special
Agents and Intelligence Analysts assigned to the Diversion Control Program,
Group Assistants, Intelligence Group Supervisors, Supervisory Budget
Analysts, Administrative Officers, and a Chemical Lab Supervisor who
oversees a fee-funded Forensic Chemist (Chemist). During our field visits,
we became aware of other diversion control field personnel who wished to
speak to us regarding the use of Fee Account funds and interviewed them.

Commitment Request and Obligation Data

       To determine if Fee Account funds had been used for non-diversion
control activities, we obtained the electronic records of all fee-funded
obligations between FY 2004 and the first half of FY 2007 that were
recorded in the FFS. From these records, we selected a random sample of
obligations of $500 and under in the Chicago, St. Louis, and Detroit field
divisions. 28 Based on the obligations that we selected, we asked for the
associated commitment request and obligating documents from the three
field divisions. On these documents, we reviewed the number of approval
signatures from diversion and non-diversion control supervisors, the types

       28The sample is statistically valid at the 95-percent confidence level with a plus or
minus 10-percent error rate.


U.S. Department of Justice                                                                15
Office of the Inspector General
Evaluation and Inspections Division
of expenses, and the number of written justifications included on these
forms to determine how closely the field divisions followed the guidelines of
the obligation process for expenses of $500 and under.

       From the records in the FFS, we also selected a subjective sample of
obligations exceeding $500 that are required to be validated by the
Validation Unit. To ensure that we reviewed expenses in certain categories,
we subjectively sampled 10 obligations from the 5 following categories, for a
total of 50 obligations:

   •   infrastructure – obligations related to official government vehicles,
       building alterations, and utilities;

   •   training – obligations related to training diversion control personnel,
       including travel and transportation to training, as well as tuition for
       training conferences;

   •   field operations – obligations made in field divisions to support field
       activities;

   •   field support – obligations for headquarters support of field division
       activities, such as funding pen registers; 29 and

   •   headquarters support – obligations related to DEA-wide entities,
       including the Organized Crime Drug Enforcement Task Force Fusion
       Center and the El Paso Intelligence Center.

       Based on the obligations that we selected, we asked for the associated
commitment request and obligating documents. On these documents, we
reviewed the number of supervisor approval signatures, the expense
justifications, and the validation stamps to determine how many obligation
records were legitimately fee-fundable and how many records the Validation
Unit had properly approved or denied using their standard operating
procedures.

Work Hour Data

      To determine the total diversion control salary costs and assess
whether since FY 2004 the DEA fully funded its Diversion Control Program
using the Fee Account as required, we obtained work hour data from the
DEA’s Work Hours Reporting System (WRS) and the System to Retrieve

       29   A pen register is a device that records the numbers that a target telephone is
dialing.


U.S. Department of Justice                                                                   16
Office of the Inspector General
Evaluation and Inspections Division
Information from Drug Evidence II (STRIDE), the DEA’s laboratory analytical
system, for work hours associated with criminal diversion investigations by
Special Agents, Intelligence Analysts, and Chemists. The DEA tracks
Special Agent and Intelligence Analyst time in its WRS database and
Chemist time in STRIDE. 30 These employees record the hours charged to
specific criminal investigations on their biweekly timesheets using codes
known as substance identifiers that denote the primary substance or
commodity involved in the investigation. These codes specify 51 principal
controlled substances. The DEA has determined that 27 of the codes are
always related to diversion control, and work done under them is therefore
fee-fundable, and that 2 other codes may be related, depending on the case.
(See Appendix III for list of principal controlled substances or commodities
that the DEA considers fee-fundable.) The DEA determines the work hours
expended by each type of employee to support the Diversion Control
Program by adding the total number of hours associated with investigations
that have one of the 27 codes that are always related to diversion control.
During the time period covered by our review, the DEA did not include work
hours associated with the other two codes that may or may not have been
related to a diversion investigation.




       30  The Diversion Control Program has two types of Chemist positions – those that
support specific investigations (Forensic) and those who evaluate controlled substances and
listed chemicals for scheduling and other management purposes. Only Forensic Chemists
enter their time and attendance information into STRIDE.


U.S. Department of Justice                                                              17
Office of the Inspector General
Evaluation and Inspections Division
                            RESULTS OF THE REVIEW


       We did not substantiate the allegations that the DEA
       misused Fee Account funds for non-diversion control
       activities between FY 2004 and FY 2007. However, many
       diversion control employees in field divisions we
       interviewed told us that they thought the DEA used Fee
       Account funds inappropriately.     We believe that DEA’s
       recent policy of using more Special Agents and Intelligence
       Analysts within the Diversion Control Program to support
       investigations, combined with inaccurate understandings of
       how the DEA can use the Fee Account, contributed to the
       Diversion Investigators’ perception. Although we found no
       use of Fee Account funds for non-diversion activities, we
       found that the DEA did not fully fund all Diversion Control
       Program salary costs with the Fee Account as required by
       law.

We did not substantiate the allegations that the DEA misused Fee
Account funds for non-diversion control activities between FY 2004
and FY 2007.

      We based our determination on our review of obligations of $500 and
under in three field divisions, obligations exceeding $500, interviews with
diversion control personnel at headquarters and in the field, and various
DEA documents concerning diversion control. The following is a discussion
of what we found.

Obligations of $500 and Under
       Our review found that obligations of $500 and under in the three field
offices we visited were for diversion control-related activities. During our
site visits to DEA field divisions in Chicago, Detroit, and St. Louis, we
reviewed a random sample of 265 obligation documents for expenses of
$500 and under. The Diversion Program Manager or other senior diversion
control personnel in the field is supposed to approve these obligations to
ensure that the commitment requests are for diversion control activities
before they are obligated. We reviewed these obligations to confirm that
they were in fact made for legitimate diversion control activities.

      We concluded that an obligation was diversion control-related if we
could confirm from information on the obligation documents that the
expense fell into one of the following categories:


U.S. Department of Justice                                                  18
Office of the Inspector General
Evaluation and Inspections Division
         •   supplies or services were related if they were for diversion control
             personnel;

         •   an investigation obligation was related if the case number or
             substance identifier was specific to a diversion investigation;

         •   travel was related if the person traveling was a diversion control
             employee or the travel was related to a diversion control activity;

         •   training was related if the trainee was a diversion control
             employee; or

         •   repair, maintenance, or fuel for an official government vehicle was
             related if the vehicle involved was a fee-funded vehicle.

      We found that 247 (93 percent) of the 265 obligations were clearly for
diversion control activities because they were expenses that fell into one of
the categories above. The remaining 18 obligations were for office supply
orders that were approved and signed by the Diversion Program Manager.
We concluded that these 18 (7 percent) obligations were valid diversion
control expenses because they were approved by the highest-ranking
diversion control employee in the field division as part of the DEA’s process
for ensuring that Fee Account expenses of $500 and under are legitimate
diversion control expenses. Table 2 summarizes the results of our analysis.

  Table 2: Criteria for Determining if Obligations Were Related to
  Diversion Control and Number of Obligations Determined to Be
                              Related
                                                                         Obligations
 Criteria                                                              that fit criteria
 Supplies or services were for diversion control personnel                   105
 Expense supported an investigation with a diversion case number               95
 or substance identifier
 Traveler was a diversion control employee or the travel was related           23
 to a diversion control activity
 Training was for a diversion control employee                                 14
 Expense was related to a Diversion Control Program vehicle                    10
 Diversion Program Manager signed the obligation form                          18
 Total                                                                       265
Source: OIG analysis




U.S. Department of Justice                                                                 19
Office of the Inspector General
Evaluation and Inspections Division
Obligations Exceeding $500

      We found that all of the obligations exceeding $500 that we reviewed
were valid diversion control expenses. We examined a sample of 50
obligations exceeding $500, which the DEA requires the Validation Unit to
validate. Table 3 shows the number of obligation documents we reviewed
for each of the fiscal years in our review period.

                     Table 3: Obligations Exceeding $500
                               Reviewed by OIG
                  Fiscal year           Obligations reviewed
                  FY 2004                       10
                  FY 2005                       13
                  FY 2006                       16
                  FY 2007                       11
                  Total                         50
                 Source: OIG analysis

       We determined that 46 of the obligations were diversion control-
related because the requisition form or a related document contained a
written justification explaining how the expense was related to diversion
control. We discussed the four obligations that did not contain written
justifications with the Unit Chief of the Validation Unit. Three of these
obligations were for expenses related to training, but nothing on the
documentation indicated why the expenses were diversion control-related.
The Validation Unit Chief said the training expenses were fee-fundable
because in each case the trainee was in a fee-funded position. The fourth
obligation was for remodeling office space for a field division office. In this
case, the obligation document we reviewed was for additional work on a
project that had been previously validated under a different document
number. The Validation Unit Chief provided us with documentation from
the original validation that showed the number of Diversion Investigators in
the office. We verified that the share of the remodeling costs charged to the
Fee Account was correctly based on the share of all employees in the office
who were Diversion Investigators. Three other obligation documents had
not been validated as required, but we were able to determine from the
corresponding written justifications how the expenses were related to
diversion control. Two of these obligation documents were from FY 2005,
and one was from FY 2004.




U.S. Department of Justice                                                   20
Office of the Inspector General
Evaluation and Inspections Division
Allegations Regarding the Use of Fee Account Funds

       We categorized the allegations into three general categories:

   •   Fee Account funds were not available for overtime, travel, and
       investigative expenses.

   •   Fee Account funds were not available for hiring new Diversion
       Investigators.

   •   Fee Account funds were being used to pay for the salaries and other
       associated costs of Special Agents and Intelligence Analysts who may
       not have been working on diversion control.

      In interviewing DEA Diversion Investigators in field divisions about
the use of Fee Account funds, we learned more about perceptions that funds
had been spent on non-diversion control activities. 31 The interviews, along
with a review of diversion control documents, further substantiated that the
DEA did not spend Fee Account funds on non-diversion control activities
between FY 2004 and FY 2007. We interviewed Diversion Investigators in
the three field divisions we visited to determine if they had any knowledge of
current use of Fee Account funds for non-diversion control activities.

       In the interviews, we asked Diversion Investigators assigned to field
divisions about these three categories of allegations to determine if they had
any direct knowledge of misuse that had occurred since 2004 and also
asked them to share any specific examples with us. We also asked them if
Fee Account funding was adequate for their diversion control investigations.
The results of our interviews are discussed below.

      Alleged Lack of Fee Account Funds for Overtime, Travel, and
Investigative Expenses. One area of concern for the Diversion Investigators
was their belief that Diversion Investigators could not work overtime, initiate
needed travel, or have access to certain essentials such as investigative
equipment because of a lack of Fee Account funds. During our site visits,
we asked Diversion Investigators about these specific areas for which Fee
Account funds were alleged to be unavailable. Our review found that
overtime, travel, and equipment had indeed been limited during our review
period, but DEA managers provided two explanations for the limitations.


       31 When discussing interview data, we use Diversion Investigators to mean
Diversion Program Managers, Diversion Group Supervisors, and Diversion Investigators
assigned to field divisions.


U.S. Department of Justice                                                             21
Office of the Inspector General
Evaluation and Inspections Division
       First, managers in the Diversion Control Program restricted spending
in many areas after the DEA was unable to begin to collect higher
registration fees for a year after it proposed the fee increase in November
2005. Although the DEA had anticipated collecting $238 million in
registration fees in FY 2006, it collected $163 million, roughly $75 million
less than expected. In response, the Deputy Assistant Administrator Office
of Diversion Control sent a memorandum in July 2006 to all office heads
explaining that the Office of Diversion Control had projected a funding
shortfall for the rest of FY 2006 and that funding for overtime, travel
(unrelated to investigations), and equipment was limited. Specifically, the
memorandum stated:

       Until the new [Fee Account] fee structure is collected, the following
       additional [Fee Account] program changes are required:

          •   [No Fee Account] funded conferences,
          •   No [Fee Account] funded travel, including government and contractor,
              except for investigative purposes,
          •   No [Fee Account] funded overtime at Headquarters or above your
              Divisional quarterly allocations for field offices AND no compensatory
              time . . . [and]
          •   No equipment purchases.

       The memorandum stated that if diversion control employees needed to
work more hours of overtime than allotted to the field division or need to
travel or purchase equipment, their supervisors would need to receive
approval from the Deputy Assistant Administrator of the Office of Diversion
Control in advance and that each request would be decided on a case-by-
case basis.

       During our site visits, some Diversion Investigators stated to us that
they were hesitant to request overtime because of these restrictions.
However, we determined that, when actually requested, most requests that
were submitted to the Office of Diversion Control for overtime, travel, and
equipment were approved. From July 2006 through September 2007, the
Office of Diversion Control recorded 327 requests to use Fee Account funds
in areas that had been restricted, and approved 311 (95 percent) of those
requests. Specifically regarding requests personnel submitted for
equipment purchases, travel expenses, and additional overtime from July
2006 through September 2007, we found that the DEA had approved 120
(97 percent) of the 124 requests. We recognize that other requests may not
have actually been submitted to the Office of Diversion Control by Diversion
Program Managers.



U.S. Department of Justice                                                             22
Office of the Inspector General
Evaluation and Inspections Division
       A second restriction on Fee Account expenditures resulted from the
settlement of a lawsuit brought by Diversion Investigators regarding how
much compensation they would receive for overtime. 32 Previously,
Diversion Investigators at the GS-12 and 13 level were exempt from the Fair
Labor Standards Act, meaning their overtime was paid at less than 1.5 times
their regular rate of pay. In early 2007, the DEA settled the lawsuit and as
a result increased the overtime rate for all current Diversion Investigators at
the affected grade levels. Due to the substantially higher costs for overtime
and concerns about exceeding the budgeted amount of Fee Account funds
for overtime, the Office of Diversion Control managers strictly limited the
cumulative number of hours of overtime worked in the field divisions to
3,072 hours in May 2007. The DEA continued this restriction through May
until it could ensure that enough Fee Account funds were available to pay
for overtime for the rest of FY 2007. Starting in June 2007, the number of
authorized hours of overtime per month increased. Table 4 shows the
overtime hours authorized for use by field divisions in FY 2007.
                      Table 4: Authorized Hours of Overtime
                  for All DEA Field Divisions by Month, FY 2007
                                                   Authorized hours of
                  Month and year                        overtime
                  October 2006                             4,323
                  November 2006                            3,660
                  December 2006                            3,660
                  January 2007                             3,676
                  February 2007                            3,720
                  March 2007                               3,785
                  April 2007                               3,676
                  May 2007                                 3,072
                  June 2007                                3,872
                  July 2007                                3,989
                  August 2007                              3,660
                  September 2007                           3,908
                  Source: DEA data

       Finally, during our site visits we asked the Diversion Investigators we
interviewed about the adequacy of Fee Account funding for their
investigations and overall diversion control operations. We found that
25 out of 27 (93 percent) of the respondents stated that Fee Account funds
were adequate for their field divisions’ diversion control activities and

       32   Stephen S. Adams v. United States, 51 Fed. Cl. 57 (2001).


U.S. Department of Justice                                                  23
Office of the Inspector General
Evaluation and Inspections Division
operations. Table 5 shows the Diversion Investigators’ responses to our
questions.

       Table 5: Diversion Investigator Responses to OIG Questions
                                                     Respondents      Respondents
                                                     who answered     who answered
    Question                                            “Yes”             “No”
    Are funds allocated through the Fee Account
    adequate for the field division’s diversion            25                2
    control activities and operations?
    Have you been able to get the investigative
                                                           27                4
    equipment that you needed?
    Are operational funds for investigation
                                                           27                2
    expenses adequate?
    Has funding always allowed you to open
                                                           26                1
    investigations?
    Note: Response totals do not equal 34 because some respondents did not answer
    all questions.
    Source: OIG analysis

       We also asked Diversion Investigators who stated that they were not
able to get investigative equipment they needed because of a lack of Fee
Account funds for specific examples. In each of the three specific examples
they reported to us, we determined that the issue had either since been
resolved by the Office of Diversion Control or a constraint on funding had
not been the underlying reason the equipment request was not met. 33 One
Diversion Investigator described the need for global positioning satellite
(GPS) systems for the government vehicles Diversion Investigators use to
travel to unfamiliar and sometimes unsafe areas to conduct investigations.
When we asked the Office of Diversion Control managers about this, they
told us that they had purchased GPS systems for all diversion control
vehicles, but the systems had not been installed yet. Another Diversion
Investigator stated that laptop computers were necessary to conduct
Internet checks of registrants, a task that would be difficult if laptops were
not upgraded or replaced every few years. The Office of Diversion Control
managers told us that all Diversion Investigators had their own laptops and
that they were last replaced in 2005. Finally, one Diversion Investigator
stated that the cellular phones Diversion Investigators use did not always
provide good coverage. But when we asked the Diversion Program Manager
in this field division about this problem, he told us that because different
cellular telephone companies provided better coverage in some parts of the

       33 A fourth respondent could not specify the investigative equipment that he was
unable to get.


U.S. Department of Justice                                                                24
Office of the Inspector General
Evaluation and Inspections Division
field division’s territory than others, no one cellular phone service was the
most reliable for the entire field division and that funding constraints were
not a factor in the cell phones provided to Diversion Investigators.

       In terms of operational funds for investigative expenses, we concluded
that the lack of Fee Account funds had not impeded diversion control
operations in the three field divisions we visited. Two Diversion
Investigators stated that operational funds were inadequate. However, their
responses to our follow-up questions indicated that their concern was that
managers had increased the controls over obtaining funding and decreased
the flexibility in how funds can be used rather than making funds
unavailable when needed for a justifiable investigative expense.

      Alleged Lack of Fee Account Funds for Hiring New Diversion
Investigators. We determined that the DEA had not hired new Diversion
Investigators since November 2005 and that, as of October 2007, the
Diversion Control Program was 112 Diversion Investigators below its
authorized number of positions. Office of Diversion Control managers told
us that they had suspended the hiring of Diversion Investigators because
they were awaiting a final decision regarding a request to reclassify the
Diversion Investigator position to include law enforcement authority.

       The Office of Diversion Control managers told us that the DEA
intended to reclassify the Diversion Investigator position by creating a new
law enforcement job series for Diversion Investigators, a change that
required Office of Personnel Management (OPM) approval. The Office of
Diversion Control managers stated that the DEA decided not to hire new
Diversion Investigators until OPM approved or denied the request. In
September 2007, OPM denied the request to reclassify the Diversion
Investigator position. Office of Diversion Control managers stated that
because the proposal is no longer pending they would begin hiring
additional Special Agents dedicated to diversion control. Managers also
stated that their decisions regarding the hiring of new Diversion
Investigators will depend on the results of an ongoing staffing study to
determine the optimal balance of Diversion Investigators and Special Agents
in field divisions.

       Alleged Use of Fee Account Funds to Pay for Salaries and Other
Associated Costs of Special Agents and Intelligence Analysts. We did not
find that the DEA used Fee Account funds inappropriately to pay the
salaries and associated costs of Special Agents and Intelligence Analysts.
The allegation was that Fee Account funds were being used to compensate
Special Agents and Intelligence Analysts who did not always work on
diversion control activities. As stated in the Background section, the DEA
began assigning Special Agents and Intelligence Analysts to the Diversion

U.S. Department of Justice                                                  25
Office of the Inspector General
Evaluation and Inspections Division
Control Program in the past few years to conduct and assist with diversion
control investigations. The allegations in the Chairman’s letter and
interviews we conducted in the field indicated that Diversion Investigators
did not believe that these Special Agents or Intelligence Analysts were
always working on diversion control investigations.

       Diversion Investigators complained that the Special Agents and
Intelligence Analysts assigned to their groups still had responsibilities
related to their previous assignments. For example, Diversion Investigators
stated that in one field division the Special Agent assigned to the diversion
group still had demand reduction responsibilities and, in another field
division, the Special Agent assigned to the diversion group also served in the
DEA’s Aviation Division approximately 1 day a month. 34 Some Diversion
Investigators also told us that the Special Agents assigned to their groups
would “go missing”; did not appear to be dedicated only to diversion control
investigations; and would initiate and work on their own diversion control
cases instead of assisting Diversion Investigators with their cases. With
regard to the Intelligence Analysts, the Diversion Investigators believed that
the Intelligence Analysts assigned to assist diversion control still had
responsibilities related to illicit drug investigations and were not dedicated
full time to diversion control activities. The Diversion Investigators stated
that having other responsibilities detracted from the Special Agents’ and
Intelligence Analysts’ ability to fully support the Diversion Control Program.

       We found that the DEA’s method for calculating fee-fundable salary
costs accounts for time that Special Agents spend on criminal diversion
investigations versus criminal investigations of illicit drugs, and charges the
Fee Account only for the cumulative number of hours that Special Agents
spend on criminal diversion investigations. The DEA requires all Special
Agents and Intelligence Analysts to complete biweekly timesheets that show
the number of hours they worked on specific investigations and other
activities, including criminal diversion investigations. Each year, the DEA
calculates the number of Special Agent and Intelligence Analyst full-time
equivalents (FTE) spent on criminal diversion investigations. 35 The DEA


       34 Special Agents who serve as Demand Reduction Coordinators work with

community coalitions, civic leaders, state and local drug prevention organizations,
treatment experts, and the general public to reduce drug use. The DEA’s Aviation Division
provides aviation support for drug investigations.

        35 An FTE is the number of total hours worked divided by the maximum number of

compensable hours in a work year. The DEA defines 1 full-time work year as 2,080 hours
(or 2,600 hours for Special Agents conducting criminal investigations). One worker
occupying a full-time job all year would consume one FTE. Two employees working for
1,040 hours each would consume one FTE. Congress authorizes the number of Special
                                                                                   (Cont.)

U.S. Department of Justice                                                             26
Office of the Inspector General
Evaluation and Inspections Division
does not charge the Fee Account for more                    FY 2006 Special Agent
FTEs than have been cumulatively recorded                 Salary Expenses Charged to
by Special Agents and Intelligence Analysts                     the Fee Account
as time spent on criminal diversion
                                                         In FY 2006, Congress
investigations. In addition, the DEA                     authorized that 70 FTEs for
compares the number of FTEs worked on                    Special Agents could be paid
criminal diversion investigations to the                 through the Fee Account.
number of agents or analysts that were                   Through examination of the
                                                         Special Agent timesheets for
congressionally authorized in a given fiscal
                                                         FY 2006, the DEA determined
year. It uses Fee Account funds to pay for               that Special Agents spent 95
FTEs within the congressional authorization              FTEs on criminal diversion
and uses its appropriated funds to pay for               control investigations.
any FTEs worked beyond the congressional                 However, since Congress
                                                         authorized only 70 FTEs for
authorization. (See the example in the text
                                                         Special Agents to be fee-
box.)                                                    funded in FY 2006, the Fee
                                                         Account paid only for the
       Therefore, even if a Special Agent or             salary equivalent of the 70
Intelligence Analyst assigned to the Diversion           FTEs for Special Agents, and
                                                         appropriated funds were used
Control Program had other responsibilities,
                                                         to pay for the remaining 25
DEA’s method of calculating fee-fundable                 FTEs spent conducting
salary costs accounts for any time that fee-             criminal diversion control
funded Special Agents and Intelligence                   investigations.
Analysts do not spend on criminal diversion
investigations. The DEA only charges the Fee Account for salary costs
associated with fee-fundable investigations.

       Additionally, at the three field divisions we visited we asked the
Special Agents in Charge and Diversion Program Managers about their field
divisions’ expectations for how much time the Special Agents and
Intelligence Analysts should work on diversion investigations versus illegal
drug investigations. They told us that the Special Agents and Intelligence
Analysts should only be conducting diversion investigations; however, it is
still appropriate for them to assist in non-diversion matters when the
division needs additional Special Agents or Intelligence Analysts (such as for
large operations or emergencies) and to conduct collateral duties as needed
by the field division. Five of the seven Group Supervisors in field divisions
we visited had Special Agents or Intelligence Analysts assigned to their
group. We asked them whether the Special Agents and Intelligence Analysts
assigned to their groups actually worked only on diversion control matters.
They stated that the time spent on other duties was minimal and did not
interfere with their support of the diversion group.

Agent, Intelligence Analyst, and Chemist FTEs that the DEA can charge to the Fee Account
each year.


U.S. Department of Justice                                                            27
Office of the Inspector General
Evaluation and Inspections Division
Diversion Investigator Perceptions

      Because we found that many of the allegations were unsupported, we
also examined how Diversion Investigators came to the perception that the
DEA had used the Fee Account inappropriately. Fourteen of 34 (41 percent)
Diversion Investigators we interviewed in field divisions told us that they
thought the DEA was using Fee Account funds inappropriately. In the
allegations referred to us by the Chairman and in our interviews with
Diversion Investigators, we found that Diversion Investigators’ primary
concern was based on two perceptions regarding the DEA’s use of Fee
Account funds. First, Diversion Investigators questioned whether the
increased use of Fee Account funds for Special Agent and Intelligence
Analyst salaries was worth the additional costs to the Diversion Control
Program. Second, diversion control personnel had misperceptions about
whether the DEA was allowed to use Fee Account funds for certain diversion
control activities. Based on our discussions with diversion control
personnel and our review of DEA’s management of the Diversion Control
Program, we believe that DEA’s recent policy of using more Special Agents
and Intelligence Analysts within the Diversion Control Program, combined
with an inaccurate understanding of how the DEA can use the Fee Account,
contributed to the Diversion Investigators’ perception that the DEA used Fee
Account funds inappropriately.

       In addition, 13 of 34 (38 percent) Diversion Investigators we
interviewed questioned whether fee-funded Special Agents and Intelligence
Analysts are worth the additional costs to the Diversion Control Program.
According to one supervisor, from the Diversion Investigators’ perspective
fee-funded Special Agents cost more in terms of salary and benefits
compared with Diversion Investigators, but do not generally perform all
Diversion Investigator duties such as regulatory investigations. The
following excerpt from a document that we received during our field visits
explains the concerns of the Diversion Investigators about fee-funded
Special Agents:

       In addition to having their salaries paid by the Diversion Fee Account, the
       [Occupational Series] 1811 Special Agents . . . continue to receive an
       enhanced salary which incorporates an increased law enforcement locality
       pay, a 25% law enforcement availability pay (LEAP) and a higher retirement
       cost to be paid out of the Fee Account. 36 Not a single Diversion Investigator
       receives any of the previously listed enhancements. Therefore, the Fee
       Account will compensate a Special Agent, who almost in every instance is

       36  Availability pay is a type of premium pay that is paid to federal law enforcement
officers who are criminal investigators. Due to the nature of their work, criminal
investigators are required to work, or be available to work, substantial amounts of
“unscheduled duty.”


U.S. Department of Justice                                                                28
Office of the Inspector General
Evaluation and Inspections Division
       not as qualified as a Diversion Investigator, more compensation . . . .
       Numerous Diversion offices nationally reported that Special Agents have
       been assigned into their Diversion groups spontaneously. Despite the
       amount of support offered towards Diversion related activities, their salaries
       are paid by the Fee Account. In addition, the Agents are directed to
       authorize Diversion credit cards for fuel, vehicle repairs and to purchase
       equipment to be funded by the Fee Account.

       Some Diversion Investigators also viewed fee-funded Intelligence
Analysts as an unnecessary cost to the Fee Account because Diversion
Investigators were used to performing the investigative support tasks of
Intelligence Analysts themselves. The Diversion Investigators we spoke with
perceived that Intelligence Analysts were not needed to support diversion
control and represented an unnecessary cost to the Fee Account. Several
Diversion Investigators stated that they conducted their own intelligence
analysis and that an Intelligence Analyst assigned full time to diversion
would never have enough work to do. Some were unfamiliar with how
Intelligence Analysts supported the Diversion Control Program and what
their role and purpose was. Others stated that they believed the Fee
Account was being used to pay for Intelligence Analysts who would not be
working full time on diversion.

      In addition to disagreeing with DEA’s new approach to staffing the
Diversion Control Program, Diversion Investigators believed that the DEA
misused the Fee Account because they had misconceptions about how the
DEA could use Fee Account funds. We found that Diversion Program
Managers did not necessarily know that the DEA could fund investigations
from the Fee Account as long as the investigations pertained to a controlled
substance or listed chemical, even if no Diversion Investigator was involved
in the investigation and the investigation was not labeled with a diversion
case number. 37 For example, one Diversion Program Manager sent an e-
mail to all other Diversion Program Managers that stated:

       I was not aware that diversion fee acct funds can be used to fund a criminal
       investigation . . . even if no diversion investigators are involved and no [case
       number indicating the case was initiated by a Diversion Investigator] is
       used . . . . If a “nexus” exists for a connection to a diversion case, then
       diversion fee acct funds can be used by the agents.


       37 The Diversion Control Fee Account [Validation Unit] Standard Operating Procedure

Number One: Validating [Fee Account] Chemical Investigative Cost, 8/15/05, states that Fee
Account funding can only be used for investigations identified by one of the DEA’s fee-
fundable substance identifiers and that the “case number does not have to being [sic] the
Diversion Case Series (2000).” Every DEA investigation has a unique eight-digit case
number that specifies the (1) field division where it was initiated, (2) the fiscal year when it
was initiated, and (3) who initiated it. Cases initiated by Diversion Investigators are
denoted as “2000 series” cases.


U.S. Department of Justice                                                                   29
Office of the Inspector General
Evaluation and Inspections Division
This Diversion Program Manager learned the Fee Account funds could
be used in these instances from Office of Diversion Control managers.
In addition, during our interviews, two Diversion Investigators stated
that the Fee Account could be used to support Diversion Investigators
only and not Special Agents.

       The DEA’s use of Fee Account funds for Special Agents and
Intelligence Analysts is allowed and authorized by Congress in DEA’s budget
and DEA describes in notices in the Federal Register. For example, the
August 2006 Final Rule published in the Federal Register states that Fee
Account funds may be used to pay for Special Agents and Intelligence
Analysts. It states that the Fee Account will pay for 52 additional Special
Agent positions to support the Diversion Control Program “by serving
warrants, providing undercover support, making arrests, and providing
other functions that Diversion Investigators are prohibited from executing
but that are core elements of diversion control.” Further, it states that the
FY 2006 cost of the Diversion Control Program includes “34 of the 67 field
intelligence analysts to be phased in between Fiscal Year 2006-2007.”

       Shifts in Use of Fee Account Funds. Diversion Investigators’ concerns
about inappropriate use of Fee Account funds coincided with an increase in
the number and associated salary costs of fee-funded Special Agents and
Intelligence Analysts involved in the Diversion Control Program. Since the
beginning of our review period, the DEA increased the number of Special
Agents assigned to diversion control groups. The Special Agents were added
to conduct and assist with diversion investigations because Diversion
Investigators do not have law enforcement authority and cannot serve
warrants, conduct surveillance, manage confidential informants, or work
undercover. 38 In FY 2006, the DEA also began assigning Intelligence
Analysts to diversion investigations to analyze data, prepare background
profiles on targets, and conduct database checks.

       Overall, the number of employees paid through the Fee Account
increased by 28 positions (from 796 in FY 2004 to 824 in FY 2007).
However, the types of personnel being fee-funded shifted from traditional
diversion control positions, such as Diversion Investigators, to personnel
previously not supported by the Fee Account, such as Special Agents and
Intelligence Analysts. In particular, the number of Special Agents and


       38  See U.S. Department of Justice Office of the Inspector General, Follow-Up Review
of the Drug Enforcement Administration's Efforts to Control the Diversion of Controlled
Pharmaceuticals, Evaluation and Inspections Report I-2006-004 (July 2006), for a
discussion on the Diversion Control Program’s need for Special Agents.


U.S. Department of Justice                                                              30
Office of the Inspector General
Evaluation and Inspections Division
Intelligence Analysts increased by 79 positions (from 10 to 89). In contrast,
the number of personnel in traditionally fee-funded positions – such as
Diversion Investigators and personnel in professional/administrative and
technical/clerical positions – decreased by 51 positions (from 786 to 735)
during the same period. Table 6 shows the number of personnel by position
that were paid for by the Fee Account from FY 2004 through FY 2007. 39

       Table 6: Number of Positions/FTEs Paid by Fee Account, by
                          Occupational Series
                                                                              Increase or
Occupational                                                                   decrease
series              FY 2004        FY 2005      FY 2006       FY 2007        FY 04 - FY 07

                            Traditional diversion control personnel
Diversion
                      535             562         538           509               -26
Investigator
Professional/
                       97             93           96           103                +6
Administrative
Technical/
                      149             153         149           102               -47
Clerical
Chemist                 4              3            8            8                 +4
Attorney                1              1           11            13               +12
Subtotal              786             812         802           735            -51 (-7%)

                        Non-traditional diversion control personnel
Special Agent          10           19            70           70                 +60
Intelligence
                        0              0           10            19               +19
Analyst
Subtotal               10             19           80            89          +79 (+790%)
All fee-funded
                      796             831         882           824            +28 (+4%)
staff
Source: DEA data

       Inaccurate Understanding of the Parameters for Using Fee Account
Funds. We believe that an inaccurate understanding among Diversion
Investigators of the scope of activities fundable through the Fee Account
also contributed to a perception held by Diversion Investigators that the
DEA used Fee Account funds inappropriately for Special Agent and
Intelligence Analyst salaries. During our interviews at the three field
divisions, we asked Diversion Investigators if what was and was not covered

       39 On January 16, 2008, the DEA informed the OIG that on December 20, 2007,
Congress approved the reprogramming of 108 vacant Diversion Investigator positions to
Special Agent positions. This increased the number of authorized fee-funded Special Agent
FTEs to 97 for FY 2007.


U.S. Department of Justice                                                              31
Office of the Inspector General
Evaluation and Inspections Division
by the Fee Account was clear to them. Eight out of 24 Diversion
Investigators (33 percent) stated that it was not clear and that the line
between what could and could not be paid for with Fee Account funds was
being blurred. For example, one Diversion Investigator stated that the Fee
Account’s nickname was “the Free Account” because it was used to pay for
things not clearly related to diversion control, such as law enforcement
equipment including machine guns, ammunition, and flight equipment for
Special Agent use. Other Diversion Investigators stated that they were
“fuzzy” on the use of the Fee Account.

       We discussed with DEA diversion control managers the
misconceptions of their staff concerning the Fee Account. They told us that
the DEA has conveyed some information pertaining to the appropriate use of
Fee Account funds to diversion control employees through written policy
and at conferences for Diversion Program Managers, but we found through
interviews of Diversion Investigators that this information does not always
reach them. The DEA has provided its employees with limited written
guidance regarding the Fee Account. The Diversion Control Fee Account
User’s Guide, which was last updated in October 2005, is available on the
DEA’s Intranet site to all DEA employees. However, the guide primarily
describes the Validation Unit’s role in Fee Account spending and does not
give an overall description of the DEA’s parameters for using Fee Account
funds.

      In addition to the conference presentations and the Diversion Control
Fee Account User’s Guide, Validation Unit managers stated that they provide
information regarding the Fee Account to field division personnel when they
conduct on-site reviews of headquarters offices and field divisions’ use of the
Fee Account. However, from FY 2004 through FY 2007 these reviews
included only seven field divisions and two offices. The DEA has a total of
21 divisions and 25 headquarters offices with allowance managers.
Diversion control managers also told us that they regularly respond to
questions by diversion control personnel about how the Fee Account can be
used.

       Office of Diversion Control and Validation Unit managers told us that
they believe that more communication with diversion control personnel
about the Fee Account would improve the process for validating and using
Fee Account funds. In fact, when we asked the Section Chief of the Office of
Diversion Control about weaknesses or areas that could be improved in the
process for using Fee Account funds, she stated, “communication,” and
added that she wanted “to get the word [about Fee Account use] out better.”
The Section Chief of the Executive Policy and Strategic Planning Staff stated
that the validation process could be improved if field personnel had more
training in the use of the Fee Account. When we asked the Unit Chief of the

U.S. Department of Justice                                                  32
Office of the Inspector General
Evaluation and Inspections Division
Validation Unit whether field personnel were aware of the distinction
between expenses covered by the Fee Account and those covered by
appropriated funds, he stated that some employees were and some were
not, but to have the field personnel better informed and to improve their
understanding was a goal of the Validation Unit.

The DEA did not fully fund all diversion control salary costs with the
Fee Account.

       Our review determined that the DEA did not account for all salary
costs associated with its Diversion Control Program and thus did not factor
these costs into the program’s current budget. The DEA is required to
recover the full costs of operating the various aspects of its Diversion
Control Program through the fees charged to DEA registrants under
21 U.S.C. § 886a(1)(C). The DEA determines the level of fees to charge
registrants based on the Diversion Control Program’s budget. To recover the
full salary costs of Special Agents, Intelligence Analysts, and Chemists, the
DEA would have to charge the Fee Account for the total number of FTEs
that were expended on diversion control activities by these employees. The
DEA funded these costs with appropriated funds because it is the DEA’s
practice to not charge the Fee Account for more positions than
congressionally authorized. As stated previously, Congress authorizes the
number of Special Agent, Intelligence Analyst, and Chemist FTEs that the
DEA can charge to the Fee Account each year.

Quantifiable Salary Costs Not Captured

       We estimated that between FY 2006 and FY 2007, the DEA did not
include in its Diversion Control Program budget or charge to the Fee
Account an estimated $15.4 million in salary costs, representing 8 percent
of the total salary costs ($188 million). 40 The $15.4 million in salary costs
consists of $14.1 million for Special Agents and $1.3 million for Chemists. 41
Our analysis showed that the DEA funded all Intelligence Analyst salary

       40 The reprogramming of 108 vacant Diversion Investigator positions to Special
Agent positions discussed in Footnote 39 increased the number of fee-funded authorized
Special Agent FTEs by 27, from 70 to 97 for FY 2007. As a result, we estimate that the
Special Agent and Chemist salary costs attributable to the Diversion Control Program but
not funded with the Fee Account for FY 2006 and FY 2007 totaled $11.2 million.

         41 While there may be other costs attributable to the Diversion Control Program but

not included in the budget, we only estimated the costs attributable to diversion control
activities for Special Agents, Intelligence Analysts, and Chemists because they track their
time on individual criminal investigations according to the primary substance involved in
the investigation.



U.S. Department of Justice                                                               33
Office of the Inspector General
Evaluation and Inspections Division
costs attributable to criminal diversion investigations through the Fee
Account in FY 2006 and FY 2007.

       Under §886a, the DEA is required to recover “the full costs of
operating the various aspects” of its Diversion Control Program (such as
salaries for Special Agents, Chemists, and Intelligence Analysts involved in
diversion investigations) through the fees charged to DEA registrants. The
statute also provides the DEA with discretion to define the scope of
fee-fundable activities included in the Diversion Control Program and, in
doing so, to control which of its activities must be funded from the Fee
Account and which can be paid for out of appropriated funds.

       To define diversion control activities and determine the fees to be
collected to fund them, the DEA uses its authority under 21 U.S.C. § 821, to
“promulgate rules and regulations and to charge reasonable fees relating to
the registration and control of the manufacture, distribution, and
dispensing of controlled substances and to listed chemicals.” In Final Rule
notices published in the Federal Register, the DEA lists and explains the
activities that it has determined are part of the Diversion Control Program
(and that are therefore fee-fundable) and notifies registrants of the amount
of fees they are required to pay. The most recent Final Rule was published
on August 29, 2006. 42

      Prior to the August 2006 Final Rule, the DEA only fee-funded the
actual number of Special Agents in designated fee-fundable positions.
Starting in FY 2006, the DEA started charging the Fee Account salary costs
of Special Agents in fee-funded positions, plus cumulative FTEs from other
Special Agents not in fee-fundable positions but whose time was spent on
criminal diversion investigations. The DEA used the congressionally
authorized number of FTEs established in the DEA’s budget as the
maximum number of FTEs the Fee Account could be charged. In both
FY 2006 and FY 2007, the actual number of Special Agent and Chemist
FTEs attributable to diversion investigations was higher than the
congressionally authorized number. 43


       42   The most recent fee rule was published at 71 Fed. Reg. 51105 (August 29, 2006).

        43 Prior to FY 2006, the DEA was acting within its authority to pay Special Agents

engaged in diversion control activities out of appropriated funds. While we identified FTEs
attributable to criminal diversion investigations in FY 2004 and FY 2005 that the DEA did
not fund from the Fee Account or include in the Diversion Control Program’s budget, we did
not include those FTEs in our analysis. Therefore, our analysis only pertained to the
Special Agent FTEs attributable to criminal diversion investigations in FY 2006 and
FY 2007.



U.S. Department of Justice                                                              34
Office of the Inspector General
Evaluation and Inspections Division
              The Special Agent and Chemist costs that we identified are the salary
       costs associated with the difference between the congressionally authorized
       number of FTEs and the actual FTEs attributable to criminal diversion
       investigations. Although directly related to the Diversion Control Program,
       the $15.4 million in salary costs that we identified were above the
       authorized levels, and the DEA paid for these costs with appropriated funds.
       Because the DEA has defined the salary costs of Special Agents, Intelligence
       Analysts, and Chemists attributable to Diversion Control Program activities
       as fee-fundable and based on §886a and §821, we believe that the DEA
       should have included all Special Agent and Chemist FTEs attributable to
       criminal diversion investigations in FY 2006 and FY 2007 in the Diversion
       Control Program’s budget. Table 7 presents the number and estimated
       costs of the FTEs attributable to diversion investigations but not charged to
       the Fee Account for Special Agents and Chemists for FY 2006 and
       FY 2007. 44

       Table 7: Estimate of the Number and Costs of the FTEs Attributable to
            Diversion Investigations but Not Charged to the Fee Account
                            Special Agent                                      Chemist
                               Diversion
                                              Actual FTEs                       Diversion     Actual FTEs
              Diversion         control                         Diversion
                                               and costs                      control FTEs     and costs
            control FTEs      FTEs and                        control FTEs
                                              attributable                     and costs      attributable
            and costs not        costs                        and costs not
                                              to diversion                     authorized     to diversion
             fee funded       authorized                       fee funded
                                             investigations                   by Congress    investigations
                             by Congress
                   25            70               95               9               4              13
2006
             $3,669,350                                        $960,498
                   67            70               137              3               4               7
2007
            $10,431,364                                        $321,933
Total       $14,100,714                                       $1,282,431
Source: OIG analysis

             We spoke with Office of Diversion Control managers about the Special
       Agent and Chemist FTEs attributable to diversion investigations but not
       charged to the Fee Account. The Deputy Assistant Administrator Office of
       Diversion Control was aware that the Special Agent FTEs exceeded the
       amount that had been congressionally authorized and therefore could be
       charged to the Fee Account. He stated that stopping Special Agents from
       continuing to investigate criminal diversion after the ceiling had been
       reached was not an acceptable option. When we asked ODA managers if


              44Table 7 does not reflect the reprogramming of 27 additional fee-funded Special
       Agent FTEs for FY 2007 approved by Congress on December 20, 2007.


       U.S. Department of Justice                                                                35
       Office of the Inspector General
       Evaluation and Inspections Division
they were aware that there were more Chemist FTEs attributable to criminal
diversion investigations than were charged to the Fee Account, they stated
that the Diversion Control Program should increase the number of
fee-funded Chemists and that, based on their analysis, the Fee Account
should pay for 12 Chemist positions.

Impact of Omitting Some Salary Costs From the Diversion Control Program
Budget

       The Diversion Control Program budget does not reflect $15.4 million
for Special Agent and Chemist salaries attributable to criminal diversion
investigations. Consequently, the budget is not an accurate reflection of the
true cost of the Diversion Control Program for FY 2006 and FY 2007.
Because the DEA determines the amount of fees to charge registrants based
on its estimate of the budget, the current budget does not allow the DEA to
recover the full cost of the program as defined by the DEA.

       Including the total costs for the time that Special Agents and
Chemists spent on diversion investigations as part of the Diversion Control
Program budget would have produced a budget that was a more accurate
reflection of the program’s true costs and would not have increased fees
significantly. Adding these costs would increase the fees for all the
registrants, but not significantly. For example, if the DEA computed the
FY 2006 through FY 2008 fees based on the inclusion of the total salary
costs for the time that Special Agents and Chemists spent on diversion
investigations, the 3-year registration fee for physicians, who make up
81 percent of all registrants, would have increased by $19 from $551 to
$570, approximately $6 per year. 45




       45  The DEA computed the current fees based on the estimated costs of operating
the Diversion Control Program for FY 2006 through FY 2008. The current fees will be in
place until the DEA next raises fees.


U.S. Department of Justice                                                               36
Office of the Inspector General
Evaluation and Inspections Division
                  CONCLUSIONS AND RECOMMENDATIONS


      We did not substantiate the allegations that the DEA misused Fee
Account funds for non-diversion control activities from FY 2004 through
FY 2007. In reaching this conclusion, we reviewed a statistical sample of
obligations $500 and under in three field divisions as well as a subjective
sample of obligations over $500 for spending Fee Account funds and found
that all the obligations were for legitimate diversion control activities. In
addition, interviews with DEA personnel and documents pertaining to the
use and availability of Fee Account funds did not substantiate the
allegations that the DEA had used Fee Account funds for non-diversion
control activities.

       Moreover, while the DEA had restricted diversion–related overtime,
travel, and other related expenses, we determined that the DEA had
legitimate reasons for these restrictions. We found that the DEA restricted
the use of Fee Account funds for these purposes because of a delayed
collection of registration fees and because funds were needed to cover the
settlement of an overtime lawsuit. Although the DEA imposed restrictions
on purchases of equipment, travel expenses not related to investigations,
and overtime, our interviews in the three field divisions we visited indicated
that these restrictions did not undermine diversion control operations. The
allegations also stated that the DEA did not hire additional Diversion
Investigators because of a lack of Fee Account funds. We found that the
DEA’s reason for not hiring new Diversion Investigators – that it was
awaiting an Office of Personnel Management decision on reclassifying the
Diversion Investigator position – was reasonable.

      However, many Diversion Investigators we interviewed perceived that
Fee Account funds were being used inappropriately. We believe that DEA’s
recent policy of using more Special Agents and Intelligence Analysts within
the Diversion Control Program, combined with an inaccurate understanding
of how the DEA can use the Fee Account, contributed to the Diversion
Investigators’ misperception.

       We also concluded that for FY 2006 and FY 2007, the DEA did not
fund all Diversion Control Program activities through the Fee Account. We
identified an estimated $15.4 million in salary costs for Special Agents and
Chemists between FY 2006 and FY 2007 attributable to criminal diversion
investigations that were not included in the program’s current budget and
were not paid with Fee Account funds.

       As a result of our review, we recommend that the DEA:


U.S. Department of Justice                                                  37
Office of the Inspector General
Evaluation and Inspections Division
       1. Determine the total of actual and planned program costs, including
          salary costs attributable to diversion control activities, especially
          for Special Agents, Intelligence Analysts, and Chemists, and
          include these costs in the Diversion Control Program’s budget from
          this point forward.

       2. Provide more information to DEA personnel on the requirements
          governing the use of Fee Account funds, particularly for salary and
          other associated costs of Special Agents and Intelligence Analysts.




U.S. Department of Justice                                                  38
Office of the Inspector General
Evaluation and Inspections Division
        APPENDIX I: CONGRESSIONAL LETTER OF ALLEGATIONS




U.S. Department of Justice                                39
Office of the Inspector General
Evaluation and Inspections Division
  APPENDIX II: OFFICE OF DIVERSION CONTROL PROGRAM WITHIN
                           THE DEA




U.S. Department of Justice                              40
Office of the Inspector General
Evaluation and Inspections Division
        APPENDIX III: PRINCIPAL CONTROLLED SUBSTANCES OR
         COMMODITIES THAT DEA CONSIDERS FEE-FUNDABLE




U.S. Department of Justice                                 41
Office of the Inspector General
Evaluation and Inspections Division
           APPENDIX IV: DEA’S RESPONSE TO DRAFT REPORT




U.S. Department of Justice                               42
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            43
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            44
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            45
Office of the Inspector General
Evaluation and Inspections Division
         APPENDIX V: OIG ANALYSIS OF THE DEA’S RESPONSE


      On January 9, 2008, the Office of the Inspector General (OIG) sent a
copy of the draft report to the Drug Enforcement Administration (DEA) with
a request for written comments. The DEA responded in a memorandum
dated January 28, 2008, in which it concurred with the report’s two
recommendations and described the actions it planned to take to implement
the recommendations. As a result of the DEA’s response, the
recommendations are resolved and remain open.

       Recommendation 1. Determine the total of actual and planned
program costs, including salary costs, attributable to diversion control
activities, especially for Special Agents, Intelligence Analysts, and Chemists,
and include these costs in the Diversion Control Program’s budget from this
point forward.

       Status. Resolved – open.

       Summary of DEA Response. The DEA concurred with this
recommendation and stated that it will continue to enhance its efforts to
capture the full costs of fee-fundable activities by exploring and improving
new and more effective methodologies, and by using a variety of new and
existing management tools. In addition, the DEA stated that in any given
year, if current costs are projected to exceed the Diversion Control
Program’s budget authority, a reprogramming notification will be submitted
to request a realignment covering anticipated costs.

      OIG Analysis. The actions planned by the DEA are responsive to the
recommendation. Please provide, by October 15, 2008, a copy of the
Diversion Control Program FY 2009 budget request. To enable OIG to
ascertain that the FY 2009 budget request accurately reflects the total of
actual costs, please provide data so we can compare the actual full-time
equivalents of Special Agents, Intelligence Analysts, and Chemists
attributable to the Diversion Control Program with the congressionally
authorized levels and summarizing any other costs identified as fee-
fundable that should be included in the Diversion Control Program’s budget
for FY 2009. If fee-fundable costs for FY 2008 exceed the budget authority
for FY 2008, also provide documentation of the DEA’s reprogramming
request. Additionally, please provide the new (or proposed) DEA registration
fee schedule that would go into effect in FY 2009.

      Recommendation 2. Provide more information to DEA personnel on
the requirements governing the use of the Fee Account funds, particularly


U.S. Department of Justice                                                  46
Office of the Inspector General
Evaluation and Inspections Division
for salary and other associated costs of Special Agents and Intelligence
Analysts.

       Status. Resolved – open.

      Summary of DEA Response. The DEA concurred with this
recommendation and stated that it has already conveyed information to
DEA personnel on Fee Account requirements through presentations,
lectures, and instruction at Diversion Program Manager conferences, and
on-site program reviews in DEA field offices. The DEA stated that it will
continue to educate its workforce regarding the appropriate use of Fee
Account funds through these same methods and by incorporating additional
Fee Account guidance and information in the Diversion Control Fee Account
User’s Guide, which is published on Webster (the DEA’s Intranet) and
accessible to all DEA personnel.

       OIG Analysis. The OIG notes that the actions described by the DEA
to respond to the recommendation are by and large continuations of
activities it has already established and that thus far have not accomplished
the goal of dispelling misperceptions about the Fee Account. The DEA did
state that it is planning to modify its Diversion Control Fee Account User’s
Guide to include additional Fee Account guidance. However, we believe that
the DEA should proactively provide this information to employees instead of
relying on individual employees to learn by accessing information on its
Intranet. Please provide a copy of the Diversion Control Fee Account User’s
Guide that has been revised to include additional Fee Account guidance;
copies of inspection reports of on-site reviews completed between January 1,
2008 and September 30, 2008 during which Fee Account information was
conveyed; and a description of presentations by DEA managers about how
the Fee Account can be used.




U.S. Department of Justice                                                 47
Office of the Inspector General
Evaluation and Inspections Division
